No. 20-621
IN THE SUPREME COURT OF THE UNITED STATES

HUA CAI
Petitioner
v.
HUNTSMAN CORPORATION,
Respondent

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1 1 6 6 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and
correct.

Executed on December 29, 2020.

HUA CAI
Pro se
2F No. 5, 113 Lane,
Changshu Road, Shanghai,
200040 P.R. China
Tel: +86 136 8195 1099
mustangincpk@yahoo.com

